No. 20-1732

In The

Supreme Court of the United States
____________
THOMAS BRYANT, JR.,
V.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
____________
ON PETITION FOR A WRIT OF CERTIORARI TO THE

UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

____________
BRIEF FOR THE AMERICAN CONSERVATIVE UNION
FOUNDATION NOLAN CENTER FOR JUSTICE AND THE CATO
INSTITUTE AS AMICI CURIAE IN SUPPORT OF PETITIONER
____________
CERTIFICATE OF SERVICE
I, Richard P. Bress, counsel for amici curiae The American Conservative Union
Foundation Nolan Center for Justice and The Cato Institute, and a member of the
Bar of this Court, hereby certify that on the 15th day of July, 2021, I caused to be
served a single copy of the Brief for The American Conservative Union Foundation
Nolan Center for Justice and The Cato Institute as Amici Curiae in Support of
Petitioner in the above-referenced case by first-class mail, postage prepaid, upon
counsel as listed below:

Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, NW
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
Counsel for Petitioner
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
Counsel for Respondent
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Brief for The American Conservative Union Foundation Nolan Center
for Justice and The Cato Institute as Amici Curiae in Support of Petitioner was
transmitted to the above-listed counsel at the referenced email addresses.
I further certify that all parties required to be served have been served.

By
RICHARD P. BRESS
Counsel of Record
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
rick.bress@lw.com
Counsel for amici curiae The American
Conservative Union Foundation Nolan
Center for Justice and The Cato
Institute
2

